               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       New Jersey Network Distribution
        Center – International Air Mail
                Records Unit

                       Audit Report




                                              August 10, 2012

Report Number FT-AR-12-011
                                                                          August 10, 2012

                                             New Jersey Network Distribution Center –
                                                   International Air Mail Records Unit

                                                           Report Number FT-AR-12-011



BACKGROUND:                                    WHAT THE OIG FOUND:
Six international service centers and the      New Jersey records unit personnel did
New Jersey Network Distribution Center         not always correct failed records in
process international mail for the U.S.        accordance with Postal Service
Postal Service. Five international air         procedures. Specifically, records unit
mail records units (records unit) ensure       clerks did not always nil, or render non-
records associated with this mail are          existent, duplicate dispatch records and
forwarded for billing.                         did not always issue verification notes
                                               (formal messages between postal
Inbound international mail (or dispatch)       administrations that relay information
is foreign-originating mail destined for       regarding the exchange of mail) as
delivery in the U.S. Foreign postal            required by Postal Service procedures.
administrations pay the Postal Service         Further, the New Jersey records unit
for sorting, dispatching, and delivering       supervisor did not properly document
inbound international mail. In fiscal year     weekly verification note audits, and
2011, revenue for international inbound        Headquarters International Accounting
mail was about $468 million. The               did not properly document oversight of
International Reconciliation System,           these audits. When personnel do not
which tracks international mail records,       follow established procedures, revenue
assesses all dispatch records based on         could be inaccurately recorded, and
a set of validation rules and assigns a        foreign postal administrations could
validation status (pass or fail) to each       delay acceptance of the billing and,
record. Records unit clerks are required       therefore, delay cash collection.
to correct failed records within
established timelines to complete the          WHAT THE OIG RECOMMENDED:
validation process.                            The errors identified were the result of
                                               staff oversights. Management took
Our objective was to determine if the          corrective action during the audit to
New Jersey records unit processes              address the issues identified in this
international mail transactions timely         report. Therefore, we are not making
and accurately to ensure that the              any recommendations at this time.
St. Louis International Accounting
Branch can correctly and timely bill (and      Link to review the entire report.
collect payment from) foreign postal
administrations.
August 10, 2012

MEMORANDUM FOR:            GEORGE S. RUDY, JR.
                           ACTING MANAGER, INTERNATIONAL ACCOUNTING

                           DANIEL C. HEALY
                           PLANT MANAGER, NEW JERSEY NETWORK
                            DISTRIBUTION CENTER




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – New Jersey Network Distribution Center –
                           International Air Mail Records Unit
                           (Report Number FT-AR-12-011)

This report presents the results of our audit of the New Jersey Network Distribution
Center – International Air Mail Records Unit (Project Number 12BM004FT003).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Stephen J. Masse
    Timothy F. O’Reilly
    Richard P. Uluski
    Steven R. Phelps
    Corporate Audit and Response Management
New Jersey Network Distribution Center –                                                                           FT-AR-12-011
 International Air Mail Records Unit


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Duplicate Dispatch Records ............................................................................................ 2

Verification Note Issuance............................................................................................... 2

Verification Note Audits ................................................................................................... 3

Recommendations .......................................................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Statistical Sampling and Projections ......................................................... 10
New Jersey Network Distribution Center –                                                                  FT-AR-12-011
 International Air Mail Records Unit


Introduction

This report presents issues pertaining to inbound international mail at the New Jersey
Network Distribution Center (NDC) – International Air Mail Records Unit (records unit)
(Project Number 12BM004FT003). We identified these issues during our audit of fiscal
year (FY) 2012 U.S. Postal Service Financial Statements – St. Louis Accounting
Services. The objective was to determine whether the New Jersey records unit
processes international mail transactions timely and accurately to ensure that the
St. Louis International Accounting Branch can correctly and timely bill (and collect
payment from) foreign postal administrations.1 This audit was self-initiated and
addresses financial risk. See Appendix A for additional information about this audit.

Inbound international mail (or dispatch) is foreign-originating mail destined for delivery in
the U.S. Foreign postal administrations pay the Postal Service for sorting, dispatching,
and delivering inbound international mail. The Postal Service developed the Global
Business System to assist in streamlining the processing of international mail, and it is
comprised of the Receipt System, the Dispatch System, and the International
Reconciliation System. 2 The International Reconciliation System assesses all dispatch
records based on a set of validation rules and assigns a validation status (pass or fail)
to each record. For example, one reason records may fail initial validation status is that
scan data from the Receipt System does not match the electronic data interface (EDI)
data3 received from foreign postal administrations. When this occurs, records unit clerks
are required to resolve the failed record.4 Specifically, records unit clerks update
International Reconciliation System records with the most reliable data within
established timelines to complete the validation process. Records unit clerks sometimes
use a verification note5 as a tool in this process.

Conclusion

New Jersey records unit personnel did not always resolve failed records in accordance
with Postal Service procedures. Specifically, records unit clerks did not always nil6
duplicate dispatch records and did not always issue verification notes. Further, the
New Jersey records unit supervisor did not properly document weekly verification note
1
  Posts outside the U.S. where mail is sent and received.
2
  The Receipt System captures the initial scan of international mail at the inbound receiving terminals. The Dispatch
System captures the scan of outbound mail. The International Reconciliation System supports records units in
completing their work and aids in tracking international mail records, identifying issues, and reconciling discrepancies.
The New Jersey NDC does not have the Receipt System for scanning dispatches; however, they frequently process
dispatch records scanned by the New York International Service Center (ISC).
3
  Foreign postal administrations can provide EDI data to the Postal Service before mail arrives. EDI data contains
dispatch information, including the dispatch date, and is pre-populated into the Receipt System. When receiving unit
personnel scan the bar code on mail upon arrival, the scan retrieves the EDI data and compares it to the receiving
unit data.
4
  Records that failed validation checks and must be corrected by the records unit so the St. Louis International
Accounting Branch can bill foreign postal administrations accurately.
5
  These notes are formal messages between postal administrations that relay information regarding the exchange of
mail, in particular irregularities in the preparation, dispatch, and receipt of mail.
6
  The Postal Service does not delete records but, instead, renders them non-existent and retains them for
informational purposes.
                                                               1
New Jersey Network Distribution Center –                                                                FT-AR-12-011
 International Air Mail Records Unit


audits, and International Accounting did not properly document oversight of these
audits. When personnel do not follow established procedures, revenue could be
inaccurately recorded and foreign postal administrations could delay acceptance of the
billing and, therefore, delay cash collection.

Duplicate Dispatch Records

We found seven instances out of 22,107 inbound dispatch records7 where records unit
clerks did not nil, or render non-existent, duplicate records. Specifically, records unit
clerks created new dispatch records instead of updating existing ones when they
received updated information on previously corrected failed records. When duplicate
records exist, Postal Service procedures8 require records unit clerks to nil one of the
records. Further, internal control standards9 require accurate records for billing.

This occurred due to records unit clerks’ oversight. As a result, the St. Louis
International Accounting Branch generated duplicate bills for two records totaling
$1,548.10 When personnel do not follow established procedures, revenue could be
inaccurately recorded and foreign postal administrations could delay acceptance of the
billing and, therefore, delay cash collection.

Based on our audit, the records unit supervisor brought the errors to the attention of the
respective clerks. Further, the supervisor nilled the five remaining duplicate records
identified and instructed the records unit clerks to more closely examine the
International Reconciliation System when updating previously corrected records.

Verification Note Issuance

New Jersey records unit personnel did not always issue verification notes as required
by Postal Service procedures. Of the 90 international inbound billing records we tested
for proper verification note issuance, we found eight instances where New Jersey
records unit personnel did not issue verification notes for failed Parcel Post ® dispatch
records when only EDI data was available for billing. See Appendix B for statistical
sampling and projection information.

According to Postal Service procedures11 for failed Parcel Post dispatch records, when
EDI data exists but data is not available from the Receipt System, the clerk must issue a
verification note to the appropriate foreign postal administration.12 All eight errors

7
  Inbound dispatch records that pass directly to the St. Louis International Accounting Branch for billing or were
corrected by the New Jersey records unit and then sent for billing from July 1, 2011, through March 31, 2012.
8
  International Air Mail Records Unit Standard Operating Procedures, Section 7.6, Editable Errors.
9
  Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, dated November 1999.
10
   For the remaining five duplicate records, the Postal Service had not yet billed the respective foreign postal
administrations. For this reason, we were unable to determine the total dollar amount associated with our audit
universe of 22,107 inbound dispatch records.
11
   International Air Mail Records Unit Standard Operating Procedures, Section 7.2, Non-Exclusion Failed Records for
Express Mail® Service and Parcel Post.
12
   The verification note required to be issued will either indicate that the billed amount is based on event scans/EDI
data or will request documentation from the foreign postal administration.

                                                          2
New Jersey Network Distribution Center –                                                                     FT-AR-12-011
 International Air Mail Records Unit


occurred because the supervisor incorrectly believed that, similar to letter post, the
clerks are not required to issue a verification note when only EDI data exists. When
verification notes are not properly issued, there is a risk the foreign postal administration
could delay its acceptance of the billing and, therefore, delay revenue receipt for the
Postal Service.

As a result of our audit, the supervisor issued verification notes for all eight instances
and notified his employees that, henceforth, they must issue verification notes for every
missing document and indicate in the International Reconciliation System whether the
verification note is for an estimated dispatch, dispatch with only EDI data, or dispatch
with only receiving scan data. Because we previously identified this issue,13
Headquarters International Accounting also provided guidance to all records units on
proper issuance of verification notes.

Verification Note Audits

The New Jersey records unit supervisor did not always properly document weekly
verification note audits,14 and Headquarters International Accounting did not always
properly document oversight of these audits. Specifically, the New Jersey records unit
supervisor did not keep hard copy documentation of the weekly audits with initials and
dates. In addition, Headquarters International Accounting did not properly document
completion of weekly reviews in accordance with Postal Service procedures.

The records unit supervisor was not aware of the requirement to keep initialed and
dated hard copy documentation of weekly verification audits. Additionally, Headquarters
International Accounting chose to send emails only to records units for which they found
errors or sought clarification.

Postal Service procedures and a key Sarbanes-Oxley (SOX) control15 require
supervisors to keep hard copy documentation of the weekly verification note audits and
initial and date this documentation. The procedures also require supervisors to post
audit results on the Blue Share website16 by Wednesday of each week. In addition,
Headquarters International Accounting is required to monitor and document weekly
reviews of verification note audits. Documented weekly verification note audits and
monitoring of the audits are important to ensure that communications to foreign postal
administrations are adequate and that the St. Louis International Accounting Branch has
the evidence needed to support the billing settlement process.




13
   J.T. Weeker (Chicago) International Service Center – International Air Mail Records Unit (Report
Number FT-AR-12-002, dated October 31, 2011).
14
   Record unit supervisors conduct weekly audits of verification notes to verify accuracy and timeliness.
15
   International Air Mail Records Unit Standard Operating Procedures, Section 14, and Postal Service SOX key
control number 114.CA010. A key control is a control that, if it fails, there is at least a reasonable likelihood that a
material error in the financial statements would not be prevented or detected on a timely basis.
16
   Website available to records units, International Accounting, and others to obtain current procedures and other
information to assist and monitor records units.

                                                             3
New Jersey Network Distribution Center –                                     FT-AR-12-011
 International Air Mail Records Unit


Based on our audit, the records unit supervisor created a hard copy binder with the
required documentation and his initials and dates. Also, Headquarters International
Accounting began documenting weekly reviews for all records units on the Blue Share
website.

Recommendations

Management took corrective action during the audit to address the issues identified in
this report. Therefore, we are not making any recommendations at this time.




                                           4
New Jersey Network Distribution Center –                                                              FT-AR-12-011
 International Air Mail Records Unit



                                 Appendix A: Additional Information

Background

Inbound international mail (or dispatch) is foreign-originating mail destined for delivery in
the U.S. Currently, six ISCs in New York, Miami, Chicago, Los Angeles, San Francisco,
and Honolulu, as well as the New Jersey NDC, process international mail. Foreign
postal administrations pay the Postal Service for sorting and dispatching inbound
international mail at the ISCs and the NDC. In FY 2011, revenue for international
inbound mail was about $468 million.

The Postal Service developed the Global Business System to assist in streamlining the
processing of international mail. The overall framework of the system is comprised of
the Receipt System, the Dispatch System, and the International Reconciliation System.

    The Receipt System captures the initial scan of international mail at inbound
     receiving terminals.

    The Dispatch System captures the scan of outbound mail.

    The International Reconciliation System supports records units in completing work
     by tracking international mail records, identifying issues, and reconciling
     discrepancies.

A mail dispatch may contain more than one receptacle17 and each receptacle has an
attached label generated by the country of origin. When inbound international mail
arrives at an ISC, the airline provides the mail to the receiving unit where personnel
scan the label through the Receipt System to capture receptacle information. They then
collect the billing documents18 attached to or enclosed with the receptacles and provide
them to the appropriate records unit personnel.

Currently, records units in Chicago, Los Angeles, New York, Honolulu, and New Jersey
validate mail records for the six ISCs and the one NDC19 before the data is transmitted
from the International Reconciliation System to the Foreign Post Settlement system20
and, subsequently, to the St. Louis International Accounting Branch for billing the
appropriate foreign postal administrations. The major responsibility of records unit clerks
is to correct failed dispatch records21 in the International Reconciliation System.

17
   Receptacles include trays, sacks, and boxes that usually contain more than one piece of mail.
18
   Billing documents include CN31 – Letter Bills; and CP86 or CP87 – Parcel Bills, Express Mail manifests, and
others. They come from the country of origin.
19
   The Chicago records unit is responsible for the Chicago and San Francisco ISC records. The Los Angeles records
unit is responsible for the Los Angeles and Miami ISC records. The other three records units are responsible for the
corresponding city ISC/NDC records.
20
   The Foreign Post Settlement system is the primary system that supports the processing of international accounts.
The volume data used in this system comes from the Global Business System.
21
   These are records that failed validation checks and must be corrected by the records unit so the St. Louis
International Accounting Branch can bill foreign postal administrations accurately.

                                                         5
New Jersey Network Distribution Center –                                                                  FT-AR-12-011
 International Air Mail Records Unit



The International Reconciliation System accesses all of the records based on a set of
validation rules and assigns a validation status (pass or fail) to each record. One reason
records may fail the initial validation status is because the scan data from the Receipt
System does not match the EDI data received from foreign postal administrations.
When this occurs, records unit clerks are required to update International Reconciliation
System records within established timeframes, with the most reliable data source, to
complete the validation process. Records unit clerks sometimes use verification notes
as a tool in this process. Records unit supervisors are responsible for monitoring the
resolution of failed records, tracking verification notes,22 and performing audits of
verification notes.23

Inbound international mail, the focus of this audit, is billed by dispatch. Letter post
dispatches are billed based on dispatch weight and the weight and piece count of any
additional letter post category, such as International Business Reply Service and
Registered Mail™. Parcel Post and Express Mail dispatches are billed based on
dispatch weight and piece count.

Objective, Scope, and Methodology

Our objective was to determine whether the New Jersey records unit processes
international mail transactions timely and accurately to ensure that the St. Louis
International Accounting Branch can correctly and timely bill foreign postal
administrations.

To accomplish our objective, we traced billing data residing in the Foreign Post
Settlement system to inbound international letter post and Parcel Post source
documents,24 verification notes, and/or International Reconciliation System data. We
analyzed 22,107 inbound international mail dispatch records passed and corrected for
billing from July 1, 2011, through March 31, 2012. Since records unit clerks are not
required to correct failed records for exclusion countries25 and other special case
exceptions,26 we excluded them from our universe. We then analyzed duplicate records
from this universe. We also randomly selected a sample of 90 dispatch records for the
New Jersey NDC. See Appendix B for our statistical sampling of the two mail types
(international letter post and Parcel Post) dispatched at this facility. In addition, we
tested the timeliness of failed record resolution and the issuance of verification notes for
22
   To track verification notes, records unit supervisors complete Verification Note Volume reports weekly. They must
indicate the number of verification notes that are outstanding according to the age of the verification note. The goal is
to reduce to zero the number of verification notes that are over 30 days old.
23
   On a weekly basis, the records unit supervisor audits six verification notes of adjusted mail data to verify the
accuracy and timeliness of verification notes created and responded to in accordance with Postal Service policy.
24
   New Jersey NDC does not process Express Mail.
25
   Exclusion countries (there are currently over 70 of them) agree to settle some, if not all, of their mail types using
EDI messaging; therefore, manual adjustments by the records unit are not necessary.
26
   Special case exceptions for failed records include the Netherlands and Canada for all mail sub-classes, China for
Express Mail, and all inbound international direct entry records. Inbound international direct entry is an international
mail service in which a foreign-based customer pays postage to his or her home postal administration for dispatch
and entry into the Postal Service’s domestic system. Items are prepared in accordance with Postal Service domestic
requirements and bear Postal Service postal markings and a U.S. return address.

                                                            6
New Jersey Network Distribution Center –                                          FT-AR-12-011
 International Air Mail Records Unit


compliance with procedures. Further, we reviewed a random sample of 5 weekly
verification note audits for the same timeframe for compliance with procedures.

We conducted this performance audit from April through August 2012 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on July 24, 2012, and included their
comments where appropriate.

We assessed the reliability of Foreign Post Settlement system data by reviewing the
reasonableness of data elements in our audit universe and applicable Postal Service
data reliability tests. We determined that the data was sufficiently reliable for the
purposes of this report.

Prior Audit Coverage

                                              Final
                                             Report     Monetary
   Report Title     Report Number              Date      Impact           Report Results
  Los Angeles       FT-AR-10-001           10/13/2009   $163,000   Volume data used to bill
  International                                                    foreign postal
  Service                                                          administrations for inbound
  Center –                                                         international letter post,
  Inbound                                                          Parcel Post, and Express
  International                                                    Mail service was not
  Mail                                                             always accurate and
                                                                   properly supported.
                                                                   Management agreed with
                                                                   our recommendations to
                                                                   finalize and communicate
                                                                   procedures for validating
                                                                   dispatches and expediting
                                                                   approved system change
                                                                   requests.




                                                   7
New Jersey Network Distribution Center –                                           FT-AR-12-011
 International Air Mail Records Unit


                                               Final
                                              Report    Monetary
   Report Title     Report Number              Date      Impact           Report Results
  Fiscal Year       FT-AR-11-009           3/31/2011    None       The Chicago records unit
  2010 Postal                                                      supervisor did not review
  Service                                                          inbound verification notes
  Financial                                                        created by record unit
  Statements                                                       clerks. Because the
  Audit – St.                                                      supervisor took corrective
  Louis                                                            action by starting to review
  Information                                                      verification notes, we made
  Technology &                                                     no recommendations.
  Accounting
  Service
  Center
  Los Angeles       FT-AR-12-001           10/26/2011   None       The records unit generally
  International                                                    processed international
  Service                                                          mail transactions timely
  Center –                                                         and accurately. However, it
  International                                                    did not always maintain
  Air Mail                                                         supporting documentation
  Records Unit                                                     and did not always perform
                                                                   a complete weekly audit of
                                                                   verification notes. Further,
                                                                   management did not
                                                                   always perform a complete
                                                                   review of System for
                                                                   International Revenue and
                                                                   Volume Inbound (SIRVI)
                                                                   test data or review and
                                                                   approve SIRVI tests daily.
                                                                   Management agreed with
                                                                   our findings and
                                                                   recommendations and
                                                                   stated they will begin a
                                                                   monitoring process to
                                                                   assess compliance with
                                                                   document filing and
                                                                   retention policies.
                                                                   Management also
                                                                   conducted training.




                                                   8
New Jersey Network Distribution Center –                                           FT-AR-12-011
 International Air Mail Records Unit


                                              Final
                                             Report     Monetary
   Report Title     Report Number              Date      Impact          Report Results
  J.T. Weeker       FT-AR-12-002           10/31/2011   None       The records unit generally
  (Chicago)                                                        processed international
  International                                                    mail transactions timely
  Service                                                          and accurately; however,
  Center –                                                         system access
  International                                                    identifications and
  Air Mail                                                         passwords were not
  Records Unit                                                     always properly controlled.
                                                                   Also, records unit
                                                                   personnel did not always
                                                                   perform a complete weekly
                                                                   audit of verification notes
                                                                   and submit them.
                                                                   Management agreed with
                                                                   our findings and
                                                                   recommendations. They
                                                                   reiterated password
                                                                   security requirements,
                                                                   began conducting and
                                                                   documenting training, and
                                                                   had employees change
                                                                   their passwords. Also,
                                                                   management began
                                                                   monitoring weekly audits
                                                                   and agreed to issue
                                                                   revised procedures.
  New York          FT-AR-12-006           12/19/2011   None       Management did not
  International                                                    always completely review
  Service                                                          SIRVI test data. In
  Center –                                                         addition, the Global
  International                                                    Business System was not
  Air Mail                                                         configured to log a user off
  Records Unit                                                     the network after a
                                                                   predetermined period of
                                                                   inactivity and it did not
                                                                   reject manual entry of the
                                                                   same receptacle multiple
                                                                   times. Management
                                                                   agreed with our findings
                                                                   and recommendations.
                                                                   They agreed to update the
                                                                   SIRVI policy and also
                                                                   planned to activate the
                                                                   Global Business System
                                                                   time-out feature.



                                                   9
New Jersey Network Distribution Center –                                                    FT-AR-12-011
 International Air Mail Records Unit


                         Appendix B: Statistical Sampling and Projections

The overall objective of the audit was to determine if the New Jersey records unit
processes international mail transactions timely and accurately to ensure that the
St. Louis International Accounting Branch can correctly and timely bill foreign postal
administrations.

In support of the objective, we employed a simple random sample for these audit tests.
The sample design allowed statistical projection of the number of errors within the audit
tests.

The audit universe consisted of 22,107 inbound international mail dispatch records,27
passed and corrected for billing, from July 1, 2011, through March 31, 2012. We used
unrestricted random sampling of records for the New Jersey NDC. We based our
sample size on hypothesis testing sampling theory, which is a type of simple random
attribute sampling. Our sample size, evaluation of sample, and statistical projections of
the sample data are shown below.

                                                                                       Upper Limit of
                                                                           Number of
         Audit Test               Universe           Sample Size                        Error Rate
                                                                            Errors
                                                                                       (Percentage)
 Accuracy of
 Volume Data                        22,107                  90                   3         8.38%
 Verification Note
 Issuance                           22,107                  90                   8        15.45%
 Timely Resolution
 of Failed Records                  22,107                  90                   0         3.27%

Accuracy of Volume Data
Based on the sample results, the error rate for accuracy of volume data is reasonable.

Verification Note Issuance
Based on the sample results, we are 95 percent confident that the error rate for
issuance of verification notes is not greater than 15.45 percent.

Timely Resolution of Failed Records
Based on the sample results, the error rate for the timely resolution of failed records is
reasonable.




27
     The New Jersey NDC dispatches international letter post and Parcel Post mail.

                                                          10
